No. ________
IN THE
SUPREME COURT OF THE UNITED STATES
ISIDORO GONZALEZ-FERRETIZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I, Joseph S. Camden, do swear or declare that on this 13th day of October, 2020,
as required by Supreme Court Rule 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by delivering to Federal Express, for secondday delivery, a package properly addressed to each of them and containing the above
documents.
The names and addresses of those served are as follows:
Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 13, 2020
Joseph S. Camden

